      Federal Labor Relations Authority
      OFFICE OF INSPECTOR GENERAL




Office of Inspector General
Semiannual Report to Congress
October 1, 2011 – March 31, 2012




                                 Federal Labor Relations Authority
                 1400 K Street N.W., Suite 250 Washington, D.C. 20424
                                                              Table of Contents

  Executive Summary ......................................................................................... 2
  Federal Labor Relations Authority Overview ............................................ 3
    Mission ................................................................................................................3
    Organization ........................................................................................................3
  Office of Inspector General ............................................................................ 6
  Office of Inspector General Activities ...........................................................7
    Completed Audits and Evaluations ..................................................................... 7
    Investigations ..................................................................................................... 9
    Other Activities.................................................................................................. 11
  Reporting Requirements of the Inspector General Act of 1978, as
  Amended ........................................................................................................... 14
  FY 2012 Freedom of Information Act Requests....................................... 16
    TABLE I Summary of Audit Reports with Corrective Actions Outstanding for
    More than 1 Year ............................................................................................... 17
    TABLE II Listing of Audit Reports Issued ......................................................... 18
    TABLE III Reports with Questioned Costs ........................................................ 19
    TABLE IV Recommendations that Funds Be Put to Better Use ....................... 20
  APPENDIX A Acronyms and Abbreviations ..............................................21
  APPENDIX B Definitions of Terms Used .................................................. 22




47TH SEMIANNUAL REPORT TO CONGRESS                             i                    OCTOBER 1, 2011 – MARCH 31, 2012
                                     Executive Summary
  This is the 47th Semiannual Report issued by the Office of Inspector General
  (OIG) of the Federal Labor Relations Authority (FLRA). This report, submitted
  pursuant to Section 5 of the Inspector General Act of 1978, as amended,
  summarizes the major activities and accomplishments of the OIG for the period
  October 1, 2011 to March 31, 2012. The most significant activities of the OIG
  during the first half of Fiscal Year (FY) 2012 are noted below. Additional details
  pertaining to each activity can be found in subsequent sections of this report.

  The OIG issued three reports, the annual Financial Statement Audit of the
  Federal Labor Relations Authority for Fiscal Year 2011 (AR-12-01); an Evaluation
  of the Federal Labor Relations Authority Compliance with the Federal
  Information Security Management Act Fiscal Year 2011 (ER-12-01) and the
  Federal Labor Relations Authority Compliance with the Improper Payments
  Elimination and Recovery Act of 2010 (ER-12-02).

  The OIG contracted with Dembo, Jones, Healy, Pennington & Marshall, P.C.
  (DJHPM) to audit the FLRA Financial Statements for FY 2011. DJHPM
  expressed an unqualified opinion. Also, the OIG issued a Management Letter
  (AR-12-02) in connection with the financial statement audit.

  In addition, the OIG issued an evaluation report on the FLRA’s compliance with
  the Federal Information Security Management Act. The evaluation revealed that
  FLRA has taken steps to improve the information security program by closing 14
  out of the 20 prior year issues. This year’s testing resulted in seven new findings.

  The OIG determined that the FLRA is compliant with the Improper Payments
  Elimination and Recovery Act of 2010 (ER-12-02) and applicable guidance.

  The OIG issued the most serious management and performance challenges facing
  the FLRA. Also, the OIG issued a 5-year Strategic Plan.

  The FLRA Inspector General received 24 complaints and 7 Freedom of
  Information Act requests in FY 2012. Of the 24 complaints received, the OIG
  resolved 12 of the complaints and referred 12 to other OIG’s. The OIG closed one
  investigation (IR-11-01).


47TH SEMIANNUAL REPORT TO CONGRESS          2             OCTOBER 1, 2011 – MARCH 31, 2012
                           Federal Labor Relations
                               Authority Overview
  Mission

  The mission of the Federal Labor Relations Authority (FLRA) is to carry out the
  five primary statutory responsibilities as efficiently as possible and in a manner
  that gives full effect to the rights afforded employees and agencies under the
  Federal Service Labor-Management Relations Statute (the Statute). Under the
  Statute, the primary responsibilities (type of cases) of the FLRA include:

     (1) Determining the appropriateness of units for labor organization
         representation (REP);

     (2) Adjudicating exceptions to arbitrator’s awards (ARB);

     (3) Resolving complaints of unfair labor practices (ULP);

     (4) Resolving bargaining impasses; and

     (5) Resolving issues relating to the duty to bargain (NEG).

  Organization

  The FLRA conducts it case processing activities through:

       The Office of the General Counsel (OGC) of the Authority – led by the
        General Counsel, who is appointed by the President and confirmed by the
        Senate – which, through regional offices, is the entry point for ULP
        charges filed with the FLRA. The OGC also processes REP petitions filed
        with the FLRA and decides appeals of Regional Directors’ decisions
        dismissing ULP charges.



47TH SEMIANNUAL REPORT TO CONGRESS         3              OCTOBER 1, 2011 – MARCH 31, 2012
       The Office of Administrative Law Judges is the office in which judges
        appointed by the Authority conduct administrative hearings and issue
        recommended decisions in cases involving alleged ULPs and issue
        decisions involving applications for attorney fees under the Back Pay Act
        or the Equal Access to Justice Act.

       The Authority is a quasi-judicial body (with three full-time Members --one
        of which serves as the FLRA Chairman-- appointed by the President and
        confirmed by the Senate), that resolves appeals in ULP and REP cases and
        adjudicates exceptions to ARB awards and NEG appeals.

       The Federal Service Impasses Panel, which consists of up to seven part-
        time members appointed by the President (without Senate confirmation),
        resolves impasses between Federal agencies and unions representing
        Federal employees under the Statute and the Federal Employees Flexible
        and Compressed Work Schedules Act.

       The FLRA also provides full staff support to two other entities: the
        Foreign Service Impasse Disputes Panel and the Foreign Service Labor
        Relations Board (FSLRB).

  The Chairman is the head of the Agency and also serves as FLRA’s Chief
  Executive and Administrative Officer, overseeing all agency-wide administrative
  functions.

  In carrying out statutory responsibilities, the Chairman oversees the following
  offices:

       The Office of the Executive Director, which provides agency-wide
        operational support through the following divisions: Budget and Finance,
        Administrative Services, and Information Resources Management.

       The Office of the Solicitor, which represents the agency in court
        proceedings before all United States Courts and provides the Chairman
        legal advice on various legal issues.



47TH SEMIANNUAL REPORT TO CONGRESS         4             OCTOBER 1, 2011 – MARCH 31, 2012
       The Office of Human Resources, which is responsible for providing
        agency-wide Human Resource services, and leading human capital
        management efforts pursuant to the FLRA Strategic Plan.



                        FLRA Organization Chart
                                                        AUTHORITY
                                                       CHAIRMAN AND
                                                           CHIEF
                                                        EXECUTIVE
                                                         OFFICER




         FOREIGN
         SERVICE            FOREIGN          FEDERAL
                                                                        OFFICE OF             AUTHORITY
          LABOR             SERVICE          SERVICE                                                                GENERAL
                                                                       INSPECTOR               MEMBERS
        RELATIONS           IMPASSE         IMPASSES                                                                COUNSEL
                                                                        GENERAL                   (2)
          BOARD         DISPUTES PANEL        PANEL




                                                                                            CHIEF COUNSELS
                                                                                                                    REGIONAL
                                                                                             (ONE TO EACH
                                                                                                                     OFFICES
                                                                                                MEMBER)
                                                                                                                       (7)
                                                                                                & STAFF




           EQUAL                                                                                                  COLLABORATION
                          OFFICE OF THE    OFFICE OF THE                                    CHIEF COUNSEL              AND
        EMPLOYMENT                                                    OFFICE OF THE
                           EXECUTIVE      ADMINISTRATIVE                                        TO THE             ALTERNATIVE
        OPPORTUNITY                                                    SOLICITOR
                            DIRECTOR        LAW JUDGES                                        CHAIRMAN               DISPUTE
         PROGRAM
                                                                                                                   RESOLUTION
                                                                                                                    PROGRAM




                                           INFORMATION                                                    CASE INTAKE
       ADMINISTRATIVE     BUDGET AND                                                    HUMAN
                                            RESOURCES                                                         AND
         SERVICES           FINANCE                                                   RESOURCES
                                           MANAGEMENT                                                     PUBLICATION
          DIVISION          DIVISION                                                   DIVISION
                                              DIVISION                                                      DIVISION




47TH SEMIANNUAL REPORT TO CONGRESS                           5                           OCTOBER 1, 2011 – MARCH 31, 2012
                     Office of Inspector General
  The Inspector General Act of 1978, as amended (hereafter referred to as the IG
  Act), requires the FLRA and other small agencies to establish an OIG. FLRA is a
  designated Federal entity under the IG Act of 1978, as amended. The Dodd-
  Frank Wall Street Reform and Consumer Protection Act (P.L. 111-203) altered the
  relationship of the designated Federal entity Offices of Inspectors General with
  the agency head by establishing that the term “head of the designated Federal
  entity” for FLRA “means the members of the Authority.” In accordance with the
  Dodd-Frank Act, instead of reporting to the Chairman as we have in the past, we
  submit this report to the Chairman and two Authority Members.

  The FLRA OIG is responsible for:
    (1) conducting and supervising audits and investigations relating to FLRA
        programs and operations;
     (2) reviewing legislation;
     (3) recommending policies designed to promote economy, efficiency, and
         effectiveness of the establishment; and
     (4) keeping the Chairman, Authority Members, and Congress fully and
         currently informed about problems and deficiencies, as well as the
         necessity for corrective actions.

     To aid the OIG in accomplishing its mission, the OIG was provided an IG and
     an administrative assistant.

                        OIG Organization Chart
                                         INSPECTOR
                                          GENERAL




                        ADMINISTRATIVE                  OPERATIONAL
                          ASSISTANT                       SUPPORT
                                                     - COUNSEL TO THE IG
                                                     - CONTRACTOR




47TH SEMIANNUAL REPORT TO CONGRESS           6                 OCTOBER 1, 2011 – MARCH 31, 2012
                     Office of Inspector General
                                       Activities
  Completed Audits and Evaluations

  Financial Statement Audit of the Federal Labor Relations Authority
  for Fiscal Year 2011 (AR-12-01)

        The Accountability of Tax Dollars Act of 2002 Public Law 107-289 requires
        the FLRA OIG or an independent external auditor, as determined by the
        IG, to prepare and submit to Congress and the Director of the Office of
        Management and Budget, audited financial statements.

        Under a contract monitored by the OIG, Dembo, Jones, Healy, Pennington
        & Marshall, P.C. (DJHPM) an independent certified public accounting
        firm, performed an audit of the financial statements of FLRA as of
        September 30, 2011, and the related statements of net cost and changes in
        net position, and the statements of budgetary resources. DJHPM
        expressed an unqualified opinion on FLRA’s financial statements and
        reported that they presented fairly, in all material respects, the financial
        position of FLRA as of September 30, 2011.

        DJHPM was not contracted for and did not provide an opinion on the
        effectiveness of FLRA’s internal controls. However, DJHPM did state that
        they did not identify any deficiencies in internal controls over financial
        reporting that were considered to be material weaknesses or significant
        deficiencies.

  Management Letter for Fiscal Year 2011 Audit of the Federal Labor
  Relations Authority Financial Statements Report No. (AR-12-02)

        DJHPM, under contract with the OIG, audited FLRA’s balance sheet as of
        September 30, 2011. DJHPM also examined FLRA’s internal controls over
        financial reporting and identified other operational matters, which resulted
        in a total of three financial management comment observations that did


47TH SEMIANNUAL REPORT TO CONGRESS         7             OCTOBER 1, 2011 – MARCH 31, 2012
        not reach the level required to be reported as significant deficiencies or
        material weaknesses in our Financial Statement Audit Report of the FLRA
        for FY 2011.

  Evaluation of the Federal Labor Relations Authority Compliance
  with the Federal Information Security Management Act Fiscal Year
  2011 (ER-12-01)

        The E-Government Act of 2002 (P.L. 107-347), commonly referred to as
        FISMA, requires Federal agencies to develop, document, and implement an
        agency-wide information security program that provides security for the
        information and information systems that support the operations and
        assets of the agency. FISMA assigns specific responsibilities to agency
        heads and IGs.

        FISMA requires agencies to have an annual independent evaluation
        performed on their information security programs and practices and to
        report the evaluation results to OMB. FISMA states that the independent
        evaluation is to be performed by the agency IG or an independent external
        auditor as determined by the IG.

        DJHPM, on behalf of the OIG, conducted an independent evaluation of
        FLRA’s compliance with FISMA for FY 2011 using guidelines established
        by FISMA, OMB, and the National Institute of Standards and Technology.
        A report was issued November 14, 2011. During the FY 2011 FISMA
        evaluation DJHPM performed a test on controls and a Vulnerability
        Assessment on the FLRA network. This year’s testing resulted in seven new
        findings and 10 recommendations.

        The report also includes a follow up of 20 prior year issues. Each of those
        issues has many elements that make up each finding. If any one of the
        elements is open, then that issue remains open. Six issues remain open.

  Federal Labor Relations Authority Compliance with the Improper
  Payments Elimination and Recovery Act of 2010 (ER-12-02)

        The OIG made a determination that FLRA is compliant with applicable
        provisions of the Improper Payments Elimination and Recovery Act of


47TH SEMIANNUAL REPORT TO CONGRESS         8             OCTOBER 1, 2011 – MARCH 31, 2012
        2010, in accordance with Sec.3(b) of Public Law 111-204, Improper
        Payments Elimination and Recovery Act of 2010.

  Management and Performance Challenges

        The Reports Consolidation Act of 2000, Public Law 106-531, requires the
        IG to provide the agency head with a statement that summarizes the most
        serious management and performance challenges facing the agency and
        briefly assesses the agency’s progress in addressing those challenges. On
        October 14, 2011, we provided the Chairman and Members the most
        serious management and performance challenges facing the FLRA along
        with a brief assessment of management’s progress in addressing them.
        These ongoing challenges included: resource shortages; FLRA physical and
        information technology security; proper handling of records; and
        succession planning. The agency has made substantial progress in
        addressing these challenges.

  Planned Audits and Evaluations

        The OIG plans to initiate the following audit and evaluations during the
        second half of FY 2012:

            (1) Financial Statement Audit of the Federal Labor Relations Authority
                for Fiscal Year 2012 (AR-13-01);
            (2) Evaluation of the Federal Labor Relations Authority Compliance
                with the Federal Information Security Management Act Fiscal Year
                2012(ER-13-01); and
            (3) Peer Review of the Election Assistance Commission (ER-13-02).

  Investigations
  The FLRA OIG receives and investigates allegations of fraud, waste, abuse and
  misconduct within FLRA programs and operations. The FLRA OIG investigations can
  give rise to administrative, civil and criminal penalties. Based on investigations
  conducted, the FLRA IG issues a report that sets forth the allegations and an objective
  description of the facts to FLRA management regarding administrative and civil
  matters. Investigations which uncover potential criminal activity are referred to the
  Department of Justice. As of the end of the semiannual reporting period, the OIG closed
  the investigation relating to timekeeping and attendance.



47TH SEMIANNUAL REPORT TO CONGRESS           9              OCTOBER 1, 2011 – MARCH 31, 2012
  Timekeeping and Attendance (IR-11-01)

         This investigation was predicated upon allegations of fraud, waste and abuse by
         FLRA staff relative to timekeeping, attendance and reporting practices. The
         allegations were submitted anonymously to the OIG Hotline. The Assistant U.S.
         Attorney declined criminal prosecution.

         The OIG completed its investigation during a previous reporting period. Based
         upon OIG’s investigation, FLRA issued Letters of Caution to two employees and
         conducted mandatory all-employee training on time and attendance matters, and
         published a notice in the FLRA newsletter referencing FLRA instruction and
         informing employees of their responsibilities to cooperate with the FLRA OIG.

  OIG Hotline

         In order to facilitate reporting of allegations, FLRA OIG maintains a hotline (see
         “Contacting the Office of Inspector General”). Callers who have general
         questions or concerns that do not fall within the OIG’s jurisdiction are referred to
         other entities, such as other FLRA offices, Federal agencies and local or state
         governments.

         During the reporting period, we received 24 hotline complaints. These hotline
         complaints were received via the following methods: 10 telephone calls, 9 email
         or internet/intranet responses and 5 anonymous letters/contact.

  Figure 1: Complaint Methods received by the FLRA OIG during the first half of the reporting
            period.

                               Complaint Method

                            21%
                                         42%              Hotline Telephone Calls


                         37%                              Hotline Email or
                                                          Internet/Intranet Responses

                                                          Anonymous Letters/Contact




47TH SEMIANNUAL REPORT TO CONGRESS              10               OCTOBER 1, 2011 – MARCH 31, 2012
         Figure 2: FLRA OIG Hotline disposition during the first half of the reporting period.

                                        OIG Hotline
                                  0%


                                                              Resolved by FLRA OIG
                     50%                     50%
                                                              Referred to Other OIG

                                                              Forward to Other FLRA
                                                              Office




  During the first half of the reporting period, the OIG resolved 12 of the
  complaints and referred 12 to other OIGs.


  Other Activities

  Strategic Plan

         The OIG issued a Five-Year Strategic Plan for Fiscal Years 2012-2017 1. The
         OIG Five-Year Strategic Plan provides information which addresses how
         we will fulfill statutory requirements established by the Inspector General
         Act of 1978, as amended, and identifies our planned work, depicted by a
         hierarchical alignment of strategic goals and objectives; and their
         respective performance measures. The plan also aims to establish a deeper
         linkage between our work, the larger FLRA organizational objectives, and
         the material and unvarying recommendations from the Congress.

  Peer Review

         Offices of Inspectors General performing audits are required to perform
         (and undergo) reviews of other OIG offices on a 3-year cycle. Peer reviews
         are conducted of an OIG audit organization’s system of quality control in

  1http://www.flra.gov/webfm_send/596




47TH SEMIANNUAL REPORT TO CONGRESS                 11             OCTOBER 1, 2011 – MARCH 31, 2012
        accordance with the Council of Inspectors General on Integrity and
        Efficiency (CIGIE) Guide for Conducting External Peer Reviews of the
        Audit Organizations of Federal Offices of Inspector General, based on
        requirements in the Government Auditing Standards (Yellow Book).
        Federal audit organizations can receive a rating of pass, pass with
        deficiencies, or fail.

        Section 989C of the Dodd-Frank Wall Street and Consumer Protection Act
        of 2010 contains additional semiannual reporting requirements pertaining
        to peer review reports. Federal Inspectors General are required to engage
        in peer review processes related to audit operations. In keeping with
        Section 989C, our office is reporting the following information related to
        its peer review activities. These activities cover our role as both the
        reviewed, and the reviewing OIG.

        Peer Review Planned on FLRA OIG Audit Operations

        The FLRA OIG is not currently scheduled for a peer review. The next peer
        review to be conducted on the FLRA’s OIG system of quality control is
        projected for FY 2014.

        Peer Review to be Conducted by FLRA OIG on Other OIG Audit
        Operations

        The FLRA is scheduled to perform a peer review of the Election Assistance
        Commission OIG in the second half of FY 2012.

  Memorandum of Understanding

        In accordance with Section 6 of the Inspector General Reform Act of 2008,
        each Inspector General shall have his or her own (not reporting to agency
        management) legal counsel, or obtain the services of a counsel appointed
        by and directly reporting to another Inspector General or CIGIE on a
        reimbursable basis. The OIG signed a Memorandum of Understanding
        with the Department of Treasury OIG to provide legal services on a fiscal-
        year basis.

        The OIG signed a Memorandum of Understanding with the Election
        Assistance Commission OIG to perform a peer review of the audit


47TH SEMIANNUAL REPORT TO CONGRESS        12            OCTOBER 1, 2011 – MARCH 31, 2012
        organization’s system of quality control. The FLRA OIG plans to issue an
        opinion to the EAC OIG in the second half of FY 2012.

  Regulatory Review

        Section 4(a)(2) of the Inspector General Act of 1978, as amended, requires
        the OIG to review existing and proposed legislation and regulations
        relating to FLRA programs and operations of FLRA. During this reporting
        period the OIG did not review any legislation and regulations relating to
        FLRA.

  Liaison Activities

        The IG is a member of the CIGIE, which was established on October 14,
        2008, pursuant to the Inspector General Reform Act of 2008.
        Additionally, the FLRA IG is a member of the Inspection and Evaluation
        Committee.




47TH SEMIANNUAL REPORT TO CONGRESS        13            OCTOBER 1, 2011 – MARCH 31, 2012
        Reporting Requirements of the
      Inspector General Act of 1978, as
                             Amended
  The reporting requirements of the Inspector General Act of 1978, as amended,
  are listed in the following table along with the location of the required
  information. The word “None” appears where there is no data to report under a
  particular requirement.


      Reference                      Reporting Requirement                         Page


   Section 4(a)(2)   Review of legislation and regulations                         p.13


                     Significant problems, abuses, and deficiencies relating
   Section 5(a)(1)                                                                 None
                     to the administration of programs and operations

                     Recommendations with respect to significant problems,
   Section 5(a)(2)                                                                 None
                     abuses or deficiencies
                     Recommendations included in previous semiannual
   Section 5(a)(3)   reports on which corrective action has not been               p.17
                     completed (TABLE I)

   Section 5(a)(4)   Matters referred to prosecutive authorities                   None


   Section 5(a)(5)   Summary of reports                                            None


   Section 5(a)(6)   Listing by subject of audit reports issued (TABLE II)         p.18




47TH SEMIANNUAL REPORT TO CONGRESS          14               OCTOBER 1, 2011 – MARCH 31, 2012
         Reference                            Reporting Requirement                    Page


      Section 5(a)(7)      Summary of significant reports                              None


                           Statistical table – Reports with questioned costs
      Section 5(a)(8)                                                                  p.19
                           (TABLE III)

                           Statistical table – Recommendations that funds be put
      Section 5(a)(9)                                                                  p.20
                           to better use (TABLE IV)

                           Summary of each audit report, inspection report, and
      Section 5(a)(10)                                                                 None
                           evaluation report without management decisions

                           Description and explanation of revised management
      Section 5(a)(11)                                                                 None
                           decision

                           Management decision with which the IG is in
      Section 5(a)(12)                                                                 None
                           disagreement
                           Information under section 05(b) of the Federal
      Section 5(a)(13)     Financial Management Improvement Act (FFMIA) of             None
                           19962

      Section 5(a)(14)     Peer Review Activity                                        p.11




  2   FLRA is not subject to the requirements of the FFMIA.


47TH SEMIANNUAL REPORT TO CONGRESS                      15       OCTOBER 1, 2011 – MARCH 31, 2012
       FY 2012 Freedom of Information
                         Act Requests
  Number of Freedom of Information Act (FOIA) Requests Received               7
  Number of FOIA Requests Processed                                           7
  Number Granted                                                              3
  Number Partially Granted
  Number Not Granted                                                          4
  Reasons for Denial
  No Records Available                                                        4
  Referred to Other Agencies
  Requests Denied in Full Exemption 3
  Requests Denied in Full Exemption 5
  Requests Denied in Full Exemption 7(A)
  Requests Denied in Full Exemption 7(C)
  Request Withdrawn
  Not a Proper FOIA Request
  Not an Agency Record
  Duplicate Request
  Other
  Requests for OIG Reports from Congress and Other Government Agencies
  Received
  Processed
  Number of OIG Reports/Documents Released in Response to Requests




47TH SEMIANNUAL REPORT TO CONGRESS         16           OCTOBER 1, 2011 – MARCH 31, 2012
  TABLE I - Summary of Audit Reports with
  Corrective Actions Outstanding for More Than 1
  Year
                                                    Recommendations
                              Report     Issue
       Report Title                              Number      Close       Open
                              Number     Date

  Report on Evaluation       FY09FISMA   07/09     16          11           5
  of FLRA’s FISMA
  Compliance

  Report on Evaluation  ER-11-01         11/10     4           3            1
  of FLRA’s Compliance
  with the FISMA Act FY
  2010




47TH SEMIANNUAL REPORT TO CONGRESS       17         OCTOBER 1, 2011 – MARCH 31, 2012
  TABLE II - Listing of Audit Reports Issued

                                                                            Funds Put
  Report    Issue                            Questioned   Unsupported        to Better
 Number     Date          Report Title         Costs         Costs              Use
 ER-12-01 11/14/11      Evaluation of the        $0           $0                $0
                        Federal Labor
                        Relations
                        Authority
                        Compliance with
                        the Federal
                        Information
                        Security
                        Management Act
                        Fiscal Year 2011
 AR-12-01    11/15/11   Financial                 $0            $0               $0
                        Statement Audit
                        of the Federal
                        Labor Relations
                        Authority for
                        Fiscal Year 2011

 AR-12-02 12/29/11      Management                $0            $0               $0
                        Letter for FY 2011
                        Audit of the
                        FLRA’s Financial
                        Statements

 ER-12-02 03/12/12      Federal Labor             $0            $0               $0
                        Relations
                        Authority
                        Compliance with
                        the Improper
                        Payments
                        Elimination and
                        Recovery Act of
                        2010




47TH SEMIANNUAL REPORT TO CONGRESS           18           OCTOBER 1, 2011 – MARCH 31, 2012
  TABLE III - Reports with Questioned Costs
  The following statistical table summarizes the OIG monetary
  recommendations and the FLRA responses to those recommendations.


                                      Number of    Questioned      Unsupported
                                       Reports       Costs            Costs
  A. For which no management
     decision has been made by the
     commencement of the                  0           $0                 $0
     reporting period.

  B. Which were issued during the         0           $0                 $0
     reporting period.
                  Subtotals (A+B)        0            $0                 $0

  C. For which a management
     decision was made during the         0           $0                 $0
     reporting period.

     (i) Dollar value of disallowed
                                          0           $0                 $0
         costs; and

     (ii) Dollar value of costs not
                                          0           $0                 $0
          disallowed.

  D. For which no management
     decision has been made by the        0           $0                 $0
     end of the reporting period.

  E. Reports for which no
     management decision was
                                          0           $0                 $0
     made within 6 months of
     issuance.




47TH SEMIANNUAL REPORT TO CONGRESS            19       OCTOBER 1, 2011 – MARCH 31, 2012
  TABLE IV - Recommendations that Funds Be Put
  to Better Use

                                                   Number of           Dollar Value
                                                    Reports          (In Thousands)
  A. For which no management decision has
     been made by the commencement of the              0                    $0
     reporting period.

  B. Which were issued during the reporting
                                                       0                    $0
     period.

                           Subtotals (A+B)            0                     $0

  C. For which a management decision was
                                                       0                    $0
     made during the reporting period.

     (i) Dollar value of recommendations that
                                                       0                    $0
         were agreed to by management; and

     (ii) Dollar value of recommendations that
                                                       0                    $0
          were not agreed to by management.

  D. For which no management decision has
     been made by the end of the reporting             0                    $0
     period.

  E. Reports for which no management
     decision was made within 6 months of              0                    $0
     issuance.




47TH SEMIANNUAL REPORT TO CONGRESS            20           OCTOBER 1, 2011 – MARCH 31, 2012
  APPENDIX A - Acronyms and Abbreviations
   ARB                     Arbitration (type of FLRA case)

   CIGIE                   Council of Inspectors General on Integrity and Efficiency

   DJHPM                   Dembo, Jones, Healy, Pennington & Marshall, P.C.

   FFMIA                   Federal Financial Management Improvement Act

   FISMA                   Federal Information Security Management Act of 2002

   FLRA                    Federal Labor Relations Authority

   FOIA                    Freedom of Information Act

   FSLRB                   Foreign Service Labor Relations Board

   FY                      Fiscal Year

   IG                      Inspector General

   NEG                     Negotiability (Type of FLRA case)

   OGC                     Office of the General Counsel

   OIG                     Office of Inspector General

   OMB                     Office of Management and Budget

   P.L.                    Public Law

   REP                     Representation (Type of FLRA Case)

   STATUTE                 Federal Service Labor-Management Relations Statute

   ULP                     Unfair Labor Practice (Type of FLRA case)



47TH SEMIANNUAL REPORT TO CONGRESS         21              OCTOBER 1, 2011 – MARCH 31, 2012
  APPENDIX B - Definitions of Terms Used
   Disallowed Cost       A questioned cost that management, in a management
                         decision, has sustained or agreed should not be charged to the
                         Government.

   Final Action          The completion of all actions that management has concluded,
                         in its management decision, are necessary with respect to the
                         findings and recommendations. If management concluded
                         that no actions were necessary, final action occurs when
                         management decision is issued.

   Management            An evaluation by management of the findings and
   Decision              recommendations included in an audit report and the
                         issuance of a final decision by management concerning its
                         response to such findings and recommendations, including
                         actions concluded to be necessary.

   Questioned Cost       A cost questioned because of: (a) an alleged violation of a law,
                         regulation, contract, or other agreement or document
                         governing the expenditures of funds; (b) a finding that, at the
                         time of the audit, such cost is not supported by adequate
                         documentation; or (c) a finding that the expenditure of funds
                         for the intended purpose is unnecessary or unreasonable.

   Recommendation        A recommendation that funds could be used more efficiently if
   That Funds Be Put     management took actions to complete the recommendation,
   To Better Use         including: (a) reduction in outlays; (b) deobligation of funds;
                         (c) costs not incurred by implementing recommended
                         improvements related to the operations of the establishment,
                         a contractor; (d) avoidance of unnecessary expenditures noted
                         in preaward reviews of contract; or (e) any other savings
                         which are specifically identified.

   Unsupported Cost      A cost questioned because, at the time of the audit, such cost
                         is not supported by adequate documentation.




47TH SEMIANNUAL REPORT TO CONGRESS           22             OCTOBER 1, 2011 – MARCH 31, 2012
CONTACTING THE OFFICE OF INSPECTOR GENERAL


                         FLRA.GOV/OIG

       If you believe an activity is wasteful, fraudulent, or
       abusive of Federal funds, contact the:

                                  HOTLINE
                                (800)331-3572
                         http://www.flra.gov/oig-hotline
       email: oigmail@flra.gov
       call:    (202)218-7970
       Fax:      (202)343-1072
       write to: 1400 K Street, N.W. Suite 250, Washington, D.C. 20424




The complainant may remain confidential; allow their name to be used; or anonymous. If the
complainant chooses to remain anonymous, FLRA OIG cannot obtain additional information
on the allegation, and also cannot inform the complainant as to what action FLRA OIG has
taken on the complaint. Confidential status allows further communication between FLRA OIG
and the complainant after the original complaint is received. The identity of complainants is
protected under the provisions of the Whistleblower Protection Act of 1989 and the Inspector
General Act of 1978. To learn more about the FLRA OIG, visit our Website at
http://www.flra.gov/oig
